         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Audit Report

National Nuclear Security Administration
Contractor Governance




DOE/IG-0881                           February 2013
                                  Department of Energy
                                     Washington, DC 20585

                                        February 19, 2013
         

MEMORANDUM FOR THE ACTING ADMINISTRATOR, NATIONAL NUCLEAR
               SECURITY ADMINISTRATION


FROM:                   Gregory H. Friedman
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "National Nuclear Security
                        Administration Contractor Governance"

INTRODUCTION

Since July 2007, the Department of Energy (Department) and the National Nuclear Security
Administration (NNSA) have required contractors to implement self-assessment systems to
measure performance and help ensure effective and efficient mission accomplishment. Each
"contractor assurance system" was to include external and internal assessments, worker feedback
mechanisms, issues management systems, lessons learned programs, and performance metrics. In
essence, contractors assessed and evaluated their own performance with some level of Federal
oversight. High quality performance metrics and measurement protocols are essential elements
of NNSA's approach to contractor governance.

In 2009, in response to the President's Transparency and Open Government initiative, NNSA
focused its performance directives with a vision of improving the management of contractors.
While it did not alter the original contractor assurance system requirement, NNSA revised its
policy in February 2011 to conform to the Presidential initiative and established a process to
affirm the effectiveness of its contractors' assurance systems. The new process was intended to
ensure that the contractors have an assurance system which enables NNSA to conduct effective
and efficient line oversight. The guidance reiterated that contractor assurance systems were the
primary tool to measure, improve, and demonstrate contractor performance and ensure that all
mission objectives and contract requirements were met.

Given the near total reliance on contractor support in carrying out most of NNSA's mission, and,
consequently, the importance of contractor performance, transparency and effectiveness efforts,
we initiated this audit to evaluate the development of contractor assurance systems by NNSA and
its contractors.

RESULTS OF AUDIT

Despite at least 5 years of effort, NNSA and its support offices and site contractors had not yet
implemented fully functional and effective contractor assurance systems. During recent Office of
Inspector General reviews, we identified significant implementation issues that adversely affected
NNSA's ability to deploy an effective contractor governance system. Specifically:
                                                  
 
          The contractor governance system was rendered ineffective by what Federal site level
           officials referred to as an "eyes on, hands off" approach to contract management.
           Most troubling, while Federal employees knew of problems at the contractor level,
           they perceived that the contractor governance approach prohibited them from
           intervening in contractor activities.

          Contractor weaknesses identified at the site level were not effectively communicated
           to senior management officials.

          Contractor self-assessments were not effective in identifying safety weaknesses
           subsequently identified by independent reviews.

Symptomatic of these shortcomings, we recently identified security and safety concerns at the
Y-12 National Security Complex (Y-12) and the Sandia National Laboratories (Sandia) that
demonstrated the need for improvements in contractor assurance systems and Federal oversight.
Specifically:

          Y-12's contractor assurance system failed to identify and correct early indicators of
           multiple system breakdowns that contributed to a major security breach at that nuclear
           weapons facility;

          Information important to the security of Y-12 was not reported to senior level
           managers in the NNSA; and,

          Sandia, as part of its contractor assurance system, had not always performed effective
           self-assessments to identify safety weaknesses.

Although an NNSA Headquarters official told us that the contractor assurance systems at Y-12 and
Sandia were considered to be "highly performing," we concluded that improvements were needed
in both. The significance of the issues we discovered led to our general concerns with NNSA's
approach to governance. Also, we found that Los Alamos National Laboratory had not developed
its contractor assurance system to a level of maturity needed by NNSA to affirm its effectiveness.
We also evaluated Nevada National Security Site's implementation of a contractor assurance
system and did not identify any material problems.

Further, we found that Federal officials had not provided effective oversight of contractor
operations as part of the governance approach. NNSA had indicated as part of its oversight
approach that it would maintain transactional oversight in nuclear and high hazard activities such
as those carried out at Y-12 and Sandia. Yet, Y-12 Federal officials told us that with the advent of
NNSA's contractor governance system they perceived that they were no longer permitted to
intervene in addressing identified problems, including those maintenance and system issues that
eventually contributed to the Y-12 security breach. Additionally, we found that Federal officials at
Sandia had not developed specific performance metrics to rate line level managers'
implementation of key safety management controls despite evaluation reports that identified
significant and persistent weaknesses in that area.



                                                 2 
Additionally, management officials told us that they were working to improve the contractor
assurance system implementation process. However, we identified weaknesses in NNSA's
approach to ensuring that assurance systems were effectively implemented by the contractors. In
particular, NNSA had not established or fully defined the relationship of contractor assurance
systems to contractor performance plans used to determine contractor fee at all of its sites.
Further, NNSA had not established milestones for completing the implementation and validation
of assurance systems at contractor sites.

NNSA has placed substantial reliance on its contractors' ability and willingness to identify and
correct weaknesses that threaten the safe, secure, effective and efficient operation of the
Department's national security facilities. Our findings suggest that this reliance may be
unwarranted. Recently, NNSA recognized the need to address the very contractor assurance
system issues we discovered. For example, NNSA's affirmation process identified improvements
needed in the Y-12 and Sandia contractor assurance systems. Further, we were told that NNSA
plans to reform its approach to contractor governance by implementing a new strategy that will
move the organization towards consistent practice of its business systems, including contractor
assurance systems, which could conform to standards by the International Organization for
Standardization. The objective of this effort will be to ensure that contractor systems are
designed and functioning effectively.

                           Contractor Assurance System Effectiveness

Although Y-12 and Sandia had contractor assurance systems affirmed by NNSA as either meeting
or partially meeting expectations, respectively, the systems were not fully functional and effective
as demonstrated by security and safety issues raised in two recent Office of Inspector General
reports.

Y-12 Security

In our Inquiry into the Security Breach at the National Nuclear Security Administration's Y-12
National Security Complex (DOE/IG-0868, August 2012), we reported that contractor governance
failed to identify and correct early indicators of multiple system breakdowns that contributed to a
major security breach at Y-12. During the breach, three unauthorized individuals gained access to
the area surrounding the Highly Enriched Uranium Materials Facility by severing three separate
fences and defaced the building without being interrupted by the security measures in place. Prior
to the security breach, the contractor's reporting systems and Federal oversight efforts indicated
that the site's physical security systems were functioning as intended, as identified in site office
quarterly reports to NNSA Headquarters. These site office quarterly reports were based on the
contractor's self assessments, a key component of contractor assurance systems, and NNSA's
assessment of the contractor's physical security. In fact, the Protective Force's performance was
rated at a high level. Prior to the incident, NNSA officials told us that the site was considered to
be one of the most innovative and high performing sites in the complex.

Despite the positive reports provided by the contractor and endorsements from Federal site
managers, there were actually a number of known security-related problems at Y-12. For
example, maintenance backlogs of critical security equipment were allowed to persist. The
backlogs were allowed to accumulate even though the contractor had not performed any analyses
to measure the effect of these problems and repair needs on the overall security posture. In
                                                 3 
particular, we learned that even though both contractor and Federal officials received a daily report
of all degraded equipment, they did not perform the evaluations necessary to determine whether
the outages, when considered in aggregate, would have impacted security for a significant segment
of a facility or area. Most troubling, local Federal security officials faulted NNSA's governance
system because they perceived they could not take the necessary actions to prompt the contractor
to complete needed security repairs affecting system readiness at Y-12.

Subsequent to our review of the Y-12 security incident, the NNSA Administrator commissioned a
task force to analyze the NNSA security organization and oversight model and to recommend
possible improvements. The task force identified weaknesses in the NNSA security oversight
model that, in our view, had broad implications for NNSA's overall approach to contractor
governance. In particular, the task force concluded that NNSA relied "…overwhelmingly upon
Federal staff simply reviewing contractor-provided data, rather than effectively assessing
performance itself." Additionally, the task force was particularly concerned that potentially
critical management information regarding Y-12 security was not reported clearly to appropriate
decision makers.

Sandia Safety

Our report on Integrated Safety Management at Sandia National Laboratories (DOE/IG-0866,
May 2012), found Sandia had not always performed effective self-assessments, a key element of
contractor assurance systems, to identify weaknesses that were subsequently identified by
independent evaluations. An Integrated Safety Management (ISM) system is intended to prevent
or reduce occupational injuries, illnesses and accidents by providing safe and healthy workplaces.
Although line managers' self-assessments are required by ISM and are a vital part of contractor
assurance systems, we found that only 3 of the 240 ISM self-assessments performed by managers
since 2006 identified "significant" findings that required a formal corrective action plan. In
contrast, since 2005, external reviews have identified numerous systemic, significant and repetitive
findings on ISM implementation at the line level. We found that Sandia had not provided line
managers with the tools and training necessary to perform the effective self-assessments required
by contractor assurance systems. Additionally, the NNSA Site Office had not developed specific
performance metrics, another key element of NNSA's approach to contractor governance to rate
Sandia line level managers' implementation of a contractor assurance system.

In addition to the specific contractor assurance system implementation problems identified at
Y-12 and Sandia, NNSA had not fully provided the guidance and controls necessary to ensure
effective implementation of contractor assurance systems across the weapons complex. In
particular, NNSA had not provided guidance to site offices and contractors to determine the
extent to which metrics measured in contractor assurance systems should be used to evaluate
annual contractor performance; presumably a critical component in determining fees. Further,
NNSA had not established long-term milestones for its contractors to develop a fully functional
and effective contractor assurance system.

                Contractor Assurance Systems and Performance Evaluation Plans

Although contractor assurance systems were intended to ensure that all mission objectives and
contract requirements were met, NNSA had not clearly defined the relationship of the metrics
tracked in the assurance systems to those contained in the contractor performance evaluation

                                                 4 
 
plans used to determine fees. Further, NNSA's procedures for affirming that contractor assurance
systems met expectations did not contain criteria for determining whether the contractor
assurance systems' performance measures were linked to the performance evaluation plans.

Both contractor and NNSA site office staffs informed us that metrics tracked in contractor
assurance systems and performance metrics in the contractor performance plans should be linked.
Limited test work at one site, however, revealed that the linkage between contractor assurance
system metrics and performance evaluation plan metrics was not always readily apparent. For
example, multiple metrics tracked in the contractor assurance system related to a single metric in
the performance evaluation plan. But, neither the contractor nor the NNSA site office had
defined how the metrics tracked in the contractor assurance system would be used in determining
the extent to which the contractor met the performance evaluation plan metric. Further, the
contractor had not developed a crosswalk for the different metrics defining their relationship, thus
rendering the relationship less than transparent.

The efficacy of contractor assurance systems in improving contractor performance is, in our view,
highly dependent on well defined metrics and a transparent relationship between metrics in
contractor assurance systems and performance evaluation plans. These elements, functioning
together, are essential to a credible pay-for-performance regime; that is, reward excellence in
contractor performance and penalize poor performance.

                                     Implementation Schedule

We also found that NNSA had not established formal, long-term milestones for its contractors to
develop fully functional and effective contractor assurance systems. For example, NNSA's Fiscal
Year (FY) 2012 Implementation Plan contained short-term milestones for contractor assurance
system actions to be completed by contractors during the fiscal year. The plan included priorities
such as continuing to measure effectiveness of process changes, providing training to Federal and
contractor leadership and staff to facilitate cultural changes, and improving communications with
all stakeholders. However, NNSA had not established long-term milestones for completing
implementation of systems, also known as affirming the contractor assurance systems. NNSA
officials told us that they had a long-term goal for having fully functional and effective contractor
assurance systems at its facilities by the end of FY 2013. However, as of December 2012, an
NNSA official expected that it would not have fully functioning and effective contractor
assurance systems at its facilities until 2014.

Until NNSA formalizes such milestones, we were unable to determine when NNSA will be in a
position to determine whether each contractor's assurance system is effective and functioning at a
"highly performing" level. In our judgment, establishing such milestones would substantially
increase the likelihood that NNSA will complete contractor assurance system development across
its contractor complex in a timely manner.

                                   Contractor Governance Goals

Contractor assurance systems were intended to foster accountability and encourage risk-informed
decision making on the part of both NNSA and its contractors. A fully functional and effective
contractor assurance system could allow NNSA to tailor its oversight to a systems-based
approach in which the contractor has demonstrated good performance, including an adequately

                                                  5 
 
functioning assurance system, thereby reducing duplicative or transactional oversight in areas
where operations are functioning efficiently. As demonstrated by the safety and security events
identified at Sandia and Y-12, an effective contractor assurance system is critical to ensuring that
NNSA effectively focuses its finite resources on identifying and correcting issues involving
safeguarding its nuclear facilities and improving worker safety.

The contractor assurance system concept has laudable goals, such as reducing the cost of
operations by eliminating potentially duplicative and/or redundant oversight, increasing
productivity to maximize mission accomplishments, and monitoring contractor performance and
evaluating risk management results. Without formalized implementation and execution plans and
outcome expectations, neither NNSA nor independent reviewers can fully measure the efficacy of
contractor assurance system development efforts, putting contractor assurance systems' goals at
risk. Regardless of whether an assurance system is in place or not, effective oversight of the
contractor by NNSA is essential.

                                           Path Forward

To its credit, NNSA had self-identified deficiencies with contractor assurance system
implementation and recognized the need to improve contractor assurance systems and its overall
approach to contractor governance. In particular, as previously noted, NNSA's affirmation process
identified improvements needed in the Y-12 and Sandia contractor assurance systems. For
example, while NNSA affirmed the Y-12 contractor assurance system as fully meeting NNSA's
expectations in June 2011, it also recommended that the contractor improve monitoring of specific
changes, modification or updates to processes based on the lessons learned or operating experience
of managers to ensure that these programs were being used to drive operational improvements in
executing the Y-12 mission. Had Y-12 ensured that monitoring of security equipment backlogs
drove operational improvements as recommended by the NNSA affirmation team, a major
contributing cause of the security breach might have been mitigated.

Additionally, NNSA affirmed that Sandia's contractor assurance system partially met expectations
in March 2012, and noted, among other things, that the contractor's, "assessment process is not
mature as indicated by inconsistent performance and varying execution of the Sandia processes
over the past few fiscal years resulting in a lack of repeatable and predictable assessment results
indicative of highly effective [contractor assurance system] CAS." The NNSA affirmation report
recommended that Sandia implement corrective actions by communicating with and training
personnel about assessment tools and by performing an effectiveness review after new assessment
tools had been implemented. These corrective actions are planned for completion by February
2013.

Most importantly, NNSA has recognized the need to reform its approach to contractor
governance. In December 2012, an NNSA official told us that the agency has decided to overhaul
its governance process, currently outlined in NNSA Policy Letter-21, to strengthen and apply it
consistently across the weapons enterprise. Additionally, the overhaul will be accomplished in
conjunction with broader management initiatives in developing a business system that conforms
to the International Organization for Standardization's quality management standard, ISO 9001,
for quality assurance.



                                                  6 
 
SUGGESTIONS

NNSA's planned initiative to reform its contractor governance model is an important step. Based
on our body of work in NNSA, we believe that comprehensive and sustained effort is critical. As
such, we suggest that in conjunction with other in-process initiatives, the National Nuclear
Security Administration should:

    1. Provide for effective oversight of contractors by clarifying the roles and responsibilities of
       contractor staff, NNSA field staff, and NNSA Headquarters staff;
    2. Establish effective lines of communication between the sites and senior NNSA managers;
    3. Mandate effective contractor self-assessments of operations;
    4. Define formal long-term milestones for completing its new business management
       processes, which includes applying a consistent approach to contractor governance; and,
    5. Establish NNSA's expectation for linking metrics contained in performance evaluation
       plans with those measured in the contractor assurance systems.

NNSA management generally agreed with our conclusions and stated that they must continue to
reform, enhance and mature their contractor assurance and governance systems and the Federal
oversight of them. In addition, they agreed with the suggested actions noted and will address
them in their future efforts to re-evaluate and enhance their processes. Management's comments
are included in their entirety in Attachment 3.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Chief of Staff




                                                  7 
 
                                                                                    Attachment 1

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective for this audit was to evaluate the development of contractor assurance systems by
National Nuclear Security Administration (NNSA) and its contractors.

SCOPE

We conducted the audit from January 2011 to December 2012, at NNSA Headquarters in
Washington, DC; the Nevada Site Office and National Security Technologies, LLC in Las Vegas,
Nevada; the Nevada National Security Site (Nevada) in Mercury, Nevada; the Los Alamos Site
Office and Los Alamos National Laboratory (Los Alamos) in Los Alamos, New Mexico; and at
the NNSA Albuquerque Complex, the Sandia Site Office and Sandia National Laboratories
(Sandia) in Albuquerque, New Mexico.

METHODOLOGY

To accomplish the audit objective, we:

      Reviewed Department of Energy (Department) guidance, and policies and procedures
       applicable to contractor assurance systems and oversight;

      Reviewed pertinent prior Office of Inspector General audits, as well as related reports
       from NNSA, the site offices, and contractors;

      Interviewed key Federal and contractor personnel associated with contractor assurance
       systems and governance;

      Reviewed NNSA's implementation plans and milestone reports;

      Reviewed policies and procedures on the contractor assurance systems related to
       assessments, issues management, incident reporting, lessons learned, worker feedback,
       performance, and measuring feedback;

      Discussed the contractor assurance systems' implementation status of environment, safety
       and health; safeguards and security; emergency management; and cyber security
       programs at Los Alamos, Nevada and Sandia; and,

      Reviewed completed affirmation reports for Nevada, Sandia and Y-12 National Security
       Complex.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,


                                                8 
 
                                                                        Attachment 1 (continued)

appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective. In
particular, we assessed the Department's implementation of the GPRA Modernization Act of 2010
and found that NNSA had established performance measures related to developing contractor
assurance systems. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. We did not rely on
computer-processed data to accomplish our audit objective.

Management waived an exit conference.




                                                9 
                                                                                   Attachment 2

                                     PRIOR REPORTS

     Implementation of Beryllium Controls at Lawrence Livermore National Laboratory
      (DOE/IG-0851, June 2011). All actions necessary to resolve previously observed
      weaknesses in a National Nuclear Security Administration (NNSA) review and an Office
      of Enforcement investigation regarding Lawrence Livermore National Laboratory’s
      (Livermore) Beryllium Prevention Program had not been completed even though
      Livermore reported that it had completed a number of corrective actions designed to
      address the weaknesses. This occurred, in part, because the Livermore Site Office
      oversight efforts were not completely effective. Neither the Livermore Site Office nor
      Livermore corrective active verification and closure processes ensured that initiated
      actions were fully implemented.

     Security Planning for National Security Information Systems at Lawrence Livermore
      National Laboratory (OAS-M-11-03, April 2011). Certain national security information
      systems at Livermore were incomplete and did not always describe security controls and
      how they were implemented. The Livermore Site Office was not always notified when
      security-significant changes were made to those systems. These issues occurred, in part,
      due to insufficient performance monitoring by NNSA and Livermore Site Office
      officials. NNSA officials relied on Livermore Site Office officials to provide sufficient
      oversight.

     Nuclear Safety: Safety Basis and Quality Assurance at the Los Alamos National
      Laboratory (DOE/IG-0837, August 2010). Los Alamos National Laboratory continued
      to experience problems fully implementing numerous critical nuclear safety management
      measures because its management had not focused sufficient attention on implementing
      the nuclear safety Quality Assurance Program throughout the Laboratory. Also, the Los
      Alamos Site Office had not always taken the actions necessary to ensure nuclear safety at
      the Laboratory was improved by not establishing performance measures requiring
      updates of Documented Safety Analyses. Further, the Los Alamos Site Office had not
      established metrics requiring the Laboratory to correct identified system quality
      assurance weaknesses.




                                              10 
 
          Attachment 3




    11 
 
          Attachment 3 (continued)




    12 
 
                                                                    IG Report No. DOE/IG-0881

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.




 
 


    This page intentionally left blank.




 
    



    




The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
    

    
    
    
    




    
